U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC. 20210




      March 20, 2006



      MEMORANDUM FOR:                EMILY STOVER DEROCCO
                                     Assistant Secretary for Employment
                                      and Training




      FROM:                          ELLIOT P. LEWIS
                                     Assistant Inspector General
                                      for Audit

      SUBJECT:                       Follow-up on Claimants with Unemployment
                                     Claims in Both Mississippi and Louisiana
                                     Related to Hurricane Katrina
                                     Management Letter No. 06-06-008-03-315

      SUMMARY

      This Management Letter is a follow-up to information the Office of Inspector
      General (OIG) provided to you on December 20, 2005, in Management Letter
      No. 06-06-004-03-315. We previously reported that we had identified 238
      potentially fraudulent claims in Mississippi and Louisiana related to Hurricane
      Katrina. However, upon more detailed review, we determined the correct
      number to be 233. Prior to our initial Management Letter, we had identified these
      claims for the States of Mississippi and Louisiana, and provided each State, for
      its review, the information we had regarding these claims.

      Our analysis of these 233 claims1 indicates that Mississippi and Louisiana
      combined to overpay 213 individuals $276,986 in Disaster Unemployment
      Assistance (DUA) benefits. Louisiana has already recovered, either from
      individuals or JPMChase Bank, which administered Louisiana’s debit card
      payment system, $37,338 in overpayments for 38 of these claims.
      Consequently, $239,648 overpaid to 175 individuals is still outstanding. Our
      review identified the following bases for the overpayments:

                                     4

      1
       Our analysis was based on the written record and, in some cases, conversations with State
      staff; we did not interview any participants or employers.
   A. 125 claimants received both Louisiana DUA payments and Mississippi
      Unemployment Insurance (UI) payments

   B. 22 claimants received both Mississippi DUA payments and Louisiana UI
      payments

   C. 66 claimants received DUA payments from both Mississippi and Louisiana

   D. 17 Social Security Numbers (SSN) were on both Mississippi’s and
      Louisiana’s claimant files, but the claimants’ names were different for each
      State

   E. 3 claimants received UI payments from both Mississippi and Louisiana

We have provided to the OIG’s Office of Labor Racketeering and Fraud
Investigations (OLRFI) both the claim files and the Office of Audit’s (OA)
assessment of the claims.

Under separate cover, we have provided you and the States of Louisiana and
Mississippi with details on the individual overpayments.

INTRODUCTION

Normally, a Management Letter is provided to be read in conjunction with an
accompanying audit report. However, due to the proactive nature of our current
work related to Hurricane Katrina, we will be issuing Management Letters to
inform the Department, in this case, the Employment and Training Administration
(ETA), of issues/problems we believe should be disclosed to help the
Department’s programs operate efficiently and effectively while reducing the
possibility of fraud, waste, and abuse.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts resulting in a national disaster. Both the States of Louisiana and
Mississippi were inundated with UI and DUA claims.

This Management Letter is an interim reporting mechanism and should be read
with the understanding that, only after the information in this Management Letter
is evaluated/investigated by the OIG’s OA and OLRFI, the Louisiana Department
of Labor, and/or the Mississippi Department of Employment Security, can a
determination be made as to the legitimacy of these unemployment claims.

OBJECTIVE, SCOPE, AND METHODOLOGY




                                         2
Our objective is to assist the States to ensure that only legitimate UI and DUA
claims are paid and that fraudulent claims are terminated as soon as possible to
reduce the drain on the States’ Unemployment Trust Funds and the Federal
Federal Emergency Management Agency funds used to pay DUA.
In our previous Management Letter, we indicated that we obtained Hurricane
Katrina-related UI and DUA databases from Mississippi and Louisiana. At the
time we received this data, Mississippi had processed UI/DUA claims for weeks
ending September 10 through October 15, 2005, and Louisiana had processed
UI/DUA claims for weeks ending September 10 through November 5, 2005. The
number of claims processed for each State for these periods was as follows:

             State             Number of Claims Processed
                                 UI                 DUA
          Mississippi          65,058              15,103
          Louisiana            186,531             86,443

We matched the States’ UI/DUA data files against each other by SSN, through
the latest available week-ending date for Mississippi, to see if claimants filed
UI/DUA claims in both States.

During our follow-up review, we obtained updated UI/DUA claims records for 216
of the 233 claimants. We did not analyze the 17 claims for which the States’ files
contained matching SSNs but different names. The States informed us these
were errors that occurred while entering claims information into their respective
systems. Because none of the 17 claimants from either State received benefits
from more than 1 State, we accepted the States’ explanation.

We analyzed each of the 216 files and rendered a conclusion based on the facts
of each claim and the DUA provisions of Title 20, Code of Federal Regulations,
Part 625 (20 CFR 625). More complete reviews by the OIG’s OLRFI or the State
agencies may result in a different determination as to the legitimacy of these
DUA claims.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal Government in the aftermath of Hurricanes Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be provided to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

A. 125 claimants received both Louisiana DUA payments and Mississippi
   UI payments




                                         3
Louisiana paid these 125 claimants $147,490 in DUA benefits for week ending
dates September 10, 2005, through January 28, 2006, with most payments being
made to JPMChase bank debit card accounts. Louisiana recovered $30,086
from the bank for 31 of these DUA payments: for 29 claimants, the State
recovered all payments; for 2 claimants, the State recovered partial amounts. As
a result, 96 claimants were overpaid DUA of $117,404. (See attachment 1 of
information previously provided.)
According to 20 CFR 625.4(i), in addition to other eligibility requirements, in order
to be eligible for DUA, the individual: “. . . is not eligible for compensation . . .
for such week under any other Federal or State law. . . . “

Further, 20 CFR 625.14 provides:

       (a) Finding and repayment. If the State agency of the applicable
       State finds that an individual has received a payment of DUA to
       which the individual was not entitled under the Act and this part,
       whether or not the payment was due to the individual’s fault or
       misrepresentation, the individual shall be liable to repay to the
       applicable State the total sum of the payment to which the
       individual was not entitled, and the State agency shall take all
       reasonable measures authorized under any State law or Federal
       law to recover for the account of the United States the total sum of
       the payments to which the individual was not entitled.

       (e) Application of State law. Any provision of State law authorizing
       waiver of recovery of overpayments of compensation shall not be
       applicable to DUA.

Consequently, $117,404 in Louisiana DUA benefits is unallowable because these
96 individuals established UI claims in Mississippi and received Mississippi UI
benefits. The State of Louisiana should establish overpayments and recover
these funds.

B. 22 claimants received both Mississippi DUA payments and Louisiana UI
   payments

For the same reasons given above, 20 of these 22 DUA claimants were
overpaid $36,648 through the week ending January 14, 2006. These 20
individuals received UI benefits in Louisiana related to their Hurricane Katrina-
related unemployment and, therefore, were not eligible for DUA in Mississippi.
(See attachment 3 of information previously provided.) The remaining two claims
did not result in overpayments because the State of Mississippi canceled one
claimant’s DUA checks based on the individual’s eligibility for Louisiana UI; a
second Mississippi claimant returned his DUA check because he had filed a
Louisiana UI claim. Consequently, $36,648 in Mississippi DUA benefits is




                                          4
unallowable and the State of Mississippi should establish overpayments and
recover these funds.

C. 66 claimants received DUA payments from both Mississippi and
   Louisiana

Mississippi and Louisiana combined to overpay 66 claimants $92,848 in DUA
benefits; however, Louisiana subsequently recovered $7,252 in debit card
account deposits for 7 claims. As a result, 59 claimants were overpaid DUA of
$85,596.

We reviewed both Mississippi and Louisiana claim files for all 66 claimants to
determine in which State the individuals were eligible for DUA benefits. We
assumed the individuals met the nonmonetary eligibility requirements to receive
DUA; i.e., the individual was unemployed as a result of the disaster. Making an
exact determination was difficult because many of the files contained conflicting
information, such as: last employer; last employers’ addresses; State wage
information in relation to reported last employer; State of residence at the time of
the disaster, etc. Conversely, a number of claims were clear as to where the
overpayment occurred.

We made a determination regarding the State in which the overpayments
occurred based on the claim files’ evidence and the provisions of 20 CFR 625.12,
which state:

       (a) Applicable State. The applicable State for an individual shall be
       that State in which the individual's unemployment is the result of a
       major disaster.

       (b) Limitation. DUA is payable to an individual only by an
       applicable State as determined pursuant to paragraph (a) of this
       section. . . .

Consequently, $85,596 in DUA benefits for 59 individuals is unallowable, as
follows:

   •   Louisiana overpaid 43 claimants $50,470 through the week ending
       January 28, 2006. (See attachment 2 of information previously provided.)

   •   Mississippi overpaid 15 claimants $33,600 through the week ending
       January 28, 2006. (See attachment 4 of information previously provided.)

   •   Both Mississippi and Louisiana overpaid one claimant: Mississippi by
       $840, and Louisiana by $686. (See attachments 2 and 4 of information
       previously provided--claimant marked with an *. Also, see attachment 5 of
       information previously provided for details of this claim.)


                                         5
D. 17 SSNs were on both Mississippi’s and Louisiana’s claimant files but
   the claimants’ names were different for each State

As stated in a previous section of this Management Letter, we did not analyze the
17 claims for which the States’ files contained matching SSNs but different
names. The States informed us these were errors that occurred while entering
claims information into their respective systems. Because none of the 17
claimants from either State received benefits from more than 1 State, we
accepted the States’ explanations.

E. 3 claimants received UI payments from both Mississippi and Louisiana

All three of these claimants had sufficient wages in both States to draw a UI
claim in each State. However, these claimants should have been paid a
combined wage claim, i.e., combining wages from the two States and paying the
appropriate weekly benefit amount from one of the States. The State paying the
claim would then bill the other State for that State’s share of the benefits.

We notified both States of this issue and provided the claims’ details. Therefore,
we will leave it to the States to resolve this issue between them.

RECOMMENDATION:

In a December 15, 2005, response to Management Letter No. 06-06-004-03-315,
the Assistant Secretary for Employment and Training stated that ETA has staff
onsite in both States to provide technical assistance, with immediate steps to
include reviewing each claim to determine legitimacy of payments made. In a
more recent response, dated February 22, 2006, to the above management
letter, the Assistant Secretary detailed the results of the States’ investigation of
126 of the 238 claims we had initially identified as potentially fraudulent. We
could not determine from the description provided in this response, how the
States’ review results compare to the information provided in this management
letter.

In view of ETA’s actions to date, we recommend that the Assistant Secretary for
Employment and Training continue its technical assistance to the States and
continue to have the States establish and collect the $239,648 of DUA
overpayments in accordance with Federal regulations.

AGENCY RESPONSE

The Assistant Secretary’s February 22, 2006, response to Management Letter
No. 06-06-004-03-315 addressed the State’s progress to date in investigating
potentially fraudulent claims, stating that the investigation was ongoing, as was



                                         6
the determination of whether the completed cases were fraudulent. Therefore,
the Assistant Secretary did not provide comments to this management letter.

OIG CONCLUSION

Based on the Assistant Secretary’s February 22, 2006, response to Management
Letter No. 06-06-004-03-315, we consider the recommendation resolved. It will
be closed upon receipt of documentation to support the States’ actions to
establish the overpayments, as described in the response.


This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

cc:   Steven Law
      Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                                       7
